<html>
<title> - DEVELOPING A COORDINATED AND SUSTAINABLE STRATEGY FOR SOMALIA</title>
<body><pre>[Senate Hearing 111-118]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-118
 
     DEVELOPING A COORDINATED AND SUSTAINABLE STRATEGY FOR SOMALIA

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
52-880                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Carson, Hon. Johnnie, Assistant Secretary for African Affairs, 
  Department of State, Washington, DC............................     3
    Prepared statement...........................................     7
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Menkhaus, Dr. Ken, professor of political science, Davidson 
  College, Charlotte, NC.........................................    14
    Prepared statement...........................................    16
Scribner, Shannon, senior policy advisor on humanitarian 
  response, Oxfam America, Washington, DC........................    19
    Prepared statement...........................................    21

                                 (iii)




     DEVELOPING A COORDINATED AND SUSTAINABLE STRATEGY FOR SOMALIA

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee) presiding.
    Present: Senators Feingold, Kaufman, Isakson, and Risch.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. This hearing will come to order. On 
behalf of the Senate Foreign Relations Subcommittee on African 
Affairs, I welcome all of you to this hearing entitled 
``Developing a Coordinated and Sustainable U.S. Strategy for 
Somalia.'' I'm honored that I will be joined by the ranking 
member of this subcommittee, Senator Isakson, and I'll invite 
him to deliver some opening remarks in just a moment when he 
arrives.
    Last month the problem of piracy off Somalia's coast hit 
home for a lot of Americans with the attack on the Maersk 
Alabama and the capture of Capt. Richard Phillips after his 
courageous actions to ensure the safety of his crew. I was 
pleased that Chairman Kerry of the full committee quickly 
organized a full committee hearing to examine this growing 
problem and in addition several other committees held hearings 
to assess this problem and also potential U.S. responses to it.
    Now, this heightened level of attention to the Horn of 
Africa is long overdue. But in order to truly understand and 
address the piracy problem we need to know what's behind it. We 
cannot ignore the conditions on land that have made the waters 
off Somalia a haven for pirates. The recent spike in piracy is 
an outgrowth of the state collapse and lawlessness and economic 
desperation that have plagued that country for well over a 
decade.
    That's why I decided to hold this hearing today. I've held 
many hearings over the years to examine how we can best address 
the crises in Somalia and am hopeful that today's hearing will 
look at the situation in Somalia from a new light, ensuring any 
short-term measures we may take to eliminate the problem of 
piracy are sustainable and coordinated with broader efforts to 
establish stability and the rule of law.
    We also cannot and should not isolate piracy from the many 
challenges the United States faces in Somalia. These challenges 
include the growth of the terrorist group al-Shabaab, some of 
whose leaders have links to al-Qaeda, the staggering 
humanitarian crisis in the country, and the standing problems 
of instability and the lack of a central government.
    In addition, I've been greatly troubled by reports over the 
last 2 weeks of intensified fighting in and around Mogadishu 
that has left hundreds of people dead and displaced tens of 
thousands of people. Over the weekend there were reports that 
al-Shabaab and their allies are gaining momentum and had 
overtaken Jowhar, a strategic town in central Somalia. They 
pledge to overthrow the government and their ranks reportedly 
now include hundreds of foreign fighters.
    More recently, the press has reported that some Ethiopian 
military forces have crossed back into Somalia. Although the 
Ethiopian Government has denied these allegations, the prospect 
of a return of Ethiopian forces into Somalia is very alarming 
and would greatly change the dynamics of the situation.
    For months now I have encouraged the Obama administration 
to engage at the highest possible level to help establish 
stability and inclusive governance in Somalia. But if these 
recent events continue, we may miss a major opportunity. I've 
called on the President to personally call Somali President 
Sheikh Sharif and to indicate a clear commitment to work with 
the new government on security and governance issues. To my 
knowledge, though, neither he nor Secretary Clinton have yet 
made that call or issued such a statement.
    We must take steps now to seriously and consistently engage 
at senior levels with the transitional government in Mogadishu. 
Now, while I recognize, of course, the fragile nature of this 
government, I am concerned by some reports that the government 
is losing both popular support and momentum. Helping to build 
stable institutions, expand effective, inclusive governance, 
and provide economic opportunities must be at the heart of any 
truly comprehensive strategy toward Somalia. At the same time, 
engagement and support for the government alone does not 
constitute a comprehensive strategy. We need a more sustained 
diplomatic push to communicate regularly with a wide range of 
nongovernmental actors within Somalia and help bring more 
groups into the political process. We also need to engage with 
stakeholders and partners in the wider region, both across the 
Horn of Africa and in the Middle East. It is impossible to 
separate Somalia's situation from wider regional dynamics, 
especially the historic tensions between Ethiopia and Eritrea 
and the instability in Yemen. To that end, I have proposed that 
the administration consider appointing a senior envoy for the 
Horn of Africa. I, of course, appreciate that the 
administration has many pressing priorities and also know 
there's an interagency policy review process under way, which I 
look forward to receiving an update about today.
    Now, of course all this is an awful lot to ask for our 
first witness today, who has only been on the job as Assistant 
Secretary for African Affairs for 2 weeks. Of course I want to 
first congratulate you, sir, on your confirmation. But while he 
may have only had this position through 2 weeks, I know that 
Assistant Secretary Carson has been thinking about, and working 
on, these issues for a very long time. In his testimony for his 
confirmation hearing he wrote about the need for a 
comprehensive U.S. strategy toward Somalia. So I'm very eager 
to hear what he sees as the key components for such a strategy, 
where the interagency strategy review stands, and how the 
administration and the Congress can work together.
    Then on our second panel we'll hear from two 
nongovernmental experts on the latest developments in Somalia 
and how the United States can address the many challenges there 
in coordination. We will hear from Dr. Ken Menkhaus, a 
professor of political science at Davidson College and arguably 
the most prolific U.S. scholar on Somalia. Dr. Menkhaus is also 
a former special adviser to the United Nations in Somalia. He 
has testified before this committee before and I welcome him 
back.
    We will also hear from Shannon Scribner, the senior policy 
adviser on humanitarian issues at Oxfam America. Ms. Scribner 
has worked on several humanitarian emergencies on behalf of 
Oxfam programs as staff on the ground, including in Liberia, 
the DRC, Iraq, Ethiopia, and areas affected by the tsunami. She 
currently serves as the cochair of the Interaction Somalia 
Working Group.
    So I want to thank all of you for being here. I look 
forward to hearing your brief testimony and ask that you do 
keep your oral testimony to 5 minutes so we can have plenty of 
time for questions and discussions.
    But it's now my pleasure to turn to the distinguished 
ranking member, Senator Isakson, for his opening comments. Not 
only is he a superb ranking member, but his timing is 
exquisite.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, I apologize for being late. I never 
want to be late for anybody named Johnnie Carson, I can tell 
you that. Mr. Carson, welcome. We are glad to have you here 
today and look forward to meeting with you later today 
preceding our trip to Africa.
    My opening remarks will simply be this, Mr. Chairman. 
Somalia, as I heard you saying as I came in, is a critical 
issue before us. It is important that we develop a strategy 
with regard to Somalia and, in fact, with regard to the larger 
region of Africa in which Somalia lies.
    So I am looking forward to hearing from our witnesses 
today. I appreciate your allowing me a statement, and I would 
rather go on and get to the testimony. So thank you very much, 
Mr. Chairman, and thank you, Johnnie.
    Senator Feingold. Thank you, sir.
    All right, Secretary Carson.

   STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY FOR 
      AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Carson. Chairman Feingold, Ranking Member Isakson, 
members of the committee, thank you very much for inviting me 
to testify at this important hearing to discuss the development 
of a coordinated and sustainable strategy toward Somalia. I do 
have written testimony which will be longer than my brief 
statement, which I will submit for the record.
    Senator Feingold. Without objection.
    Mr. Carson. This is my first appearance before you as 
Assistant Secretary of State for African Affairs and I want to 
take this opportunity, Mr. Chairman and Ranking Member Isakson, 
again for showing your strong support for my nomination and 
rushing my hearings through to completion. I look forward to 
working closely with this subcommittee on the various issues 
that fall under your jurisdiction.
    Mr. Chairman, you have consistently raised interest in 
Somalia and the greater Horn of Africa and the importance of 
the health of our relationship with the countries and peoples 
in the region. I know also, Mr. Chairman, that you've traveled 
in the Horn of Africa extensively and that Ranking Member 
Isakson has also visited Djibouti, one of the key capitals in 
the Horn of Africa.
    Somalia is located in one of the most turbulent, violent, 
and complex regions in the world and finds itself embroiled in 
a cycle of violence and instability, despite promising efforts 
in recent years by the international community and Somali 
leadership to create an inclusive and stable government. In the 
past 2 weeks, the Somali Government has come under intense 
military and political pressure. Despite the best efforts of 
the violent extremists to overthrow the Transitional Federal 
Government, the TFG, by force, the TFG remains standing and 
determined to move forward.
    This latest round of fighting occurs as we enter into a new 
chapter in the recent history of international efforts to 
assist Somalia in solving its longstanding crisis. Since the 
overthrow of the Siad Barre regime in 1991, there have been 
several distinct approaches taken by the international 
community to address the many crises that have enveloped 
Somalia.
    In 1992, the international community authorized the United 
Nations Operation in Somalia known as UNOSOM I, in an effort to 
prevent starvation and a wider humanitarian crisis caused by a 
civil war. This effort proved ineffective and a second U.N. 
operation entered Somalia in December 1992. It was called 
UNITAF. While this operation successfully restored some order, 
UNITAF was eventually replaced by a third mission, also known 
as United Nations Operation in Somalia, UNOSOM II. It was 
during the United States participation in UNOSOM II in October 
1993 that the tragic events described in ``Blackhawk Down'' 
occurred, leading to an eventual withdrawal of United States 
forces and the ultimate withdrawal of the majority of the 
international community from Somalia.
    To be very blunt, the international community pulled down 
the shades, turned out the lights, closed the door, and walked 
away from Somalia. United States reengagement with Somalia did 
not begin again until 1996, when our policy shifted to one of 
containment. For the next decade, United States policy focused 
on managing or containing Somalia's problems within the 
country's borders so that the instability did not further 
destabilize the region.
    In 2006, the Islamic Courts Union--ICU--defeated an 
alliance of militias known as the Alliance for the Restoration 
of Peace and Counter-Terrorism and became the first entity 
since the collapse of the Siad Barre regime to exert control 
over most of south-central Somalia. This change in the balance 
of power in Somalia was significant, as we faced a government 
in Somalia that was unfriendly to the United States and 
provided sanctuary to a number of known terrorists.
    Ethiopia's intervention in late 2006 was another turning 
point that resulted in increased American interest in Somalia. 
Given the threats posed by the ICU's harboring of terrorists, 
the U.S. Government's Somali strategy focused on immediate 
terrorist threats.
    The Djibouti Peace Process began in 2008 and led to the 
formation of the current Transitional Federal Government, an 
expanded Transitional Federal Parliament that includes members 
of the Djibouti faction of the Alliance for the Re-liberation 
of Somalia, and the election by Parliament of President Sheikh 
Sharif Ahmed. These are all significant steps forward for 
Somalia. Somalia now has at least the start of a government 
that is broadly representative of the Somali clan and societal 
landscape.
    However, Somalia is clearly in crisis today. Approximately 
43 percent of the Somali population relies on humanitarian 
assistance to survive and nearly 500,000 Somalis have fled the 
country and now live in overcrowded refugee camps throughout 
the region. The TFG controls only a small portion of the 
territory and the vast majority of Somalia is controlled by 
militias, clans, warlords, or terrorist organizations.
    The blight of piracy off the coast of Somalia is without 
question a symptom of the instability and insecurity within 
Somalia. Without stability in Somalia, there can be no long-
term resolution of the piracy problem. Furthermore, al-Shabaab, 
a designated foreign terrorist organization--FTO--continues to 
harbor terrorists, target civilians and humanitarian workers, 
and threatens to overthrow the TFG through violent means.
    The resolution of these problems calls for a comprehensive 
solution that provides stability and promotes reconciliation, 
economic opportunity, and hope for the Somali people.
    The Obama administration is working to address these 
challenges. The National Security Council has brought together 
the Department of State, the Department of Defense, USAID, the 
intelligence community, and a variety of other agencies to work 
to develop a strategy that is both comprehensible and 
sustainable. Such a strategy must be built around our work with 
international partners, including the United Nations, the 
African Union, the European Union, the International Authority 
on Development, IGAD, and the International Contact Group on 
Somalia.
    Our effort is to achieve our foreign policy goals, which 
are to establish political and economic stability, eliminate 
the terrorist threat, address the dire humanitarian situation, 
and eliminate the threat of piracy. We're also working with 
other states in the region as Somalia's challenges are 
intertwined with other regional conflicts throughout the Horn. 
But to make it clear, our comprehensive strategy is to promote 
a stable and peaceful Somalia, to support regional peacekeeping 
efforts, to create a functioning and effective central 
government capable of delivering services to Somalia's 
citizens, administering its territory, and providing security 
to its people, and finally to create a country that is at peace 
with its neighbors and does not harbor rebel groups from 
neighboring countries or regional or international terrorists.
    The core of this policy effort is based on internal 
political reconciliation. The United States continues to assist 
the TFG in the development of a Somali security sector, which 
is crucial for the success of governance efforts throughout 
Somalia. With Congress's assistance, we are already committed 
to providing $10 million to support the creation of a national 
security force in Somalia, and we are also working to 
strengthen the TFG's capacity so the United States and others 
in the international community can provide additional 
assistance.
    We're also the largest supporter of the African Mission in 
Somalia, AMISOM, which facilitates the delivery of humanitarian 
assistance to Somalia, protects key installations in Mogadishu, 
and provides political space for a Somali-led reconciliation 
process.
    Since the deployment of AMISOM in 2007, the United States 
has provided $130 million for logistical and equipment support 
and predeployment training for Burundian and Ugandan forces on 
the ground. We plan to continue this level of support in the 
future. Additionally, the United States remains the largest 
bilateral donor of humanitarian assistance to Somalia, having 
provided more than $137 million in emergency food and nonfood 
assistance to date.
    Unfortunately, we do not have the luxury of time in 
Somalia. In the past 2 weeks, violent extremists, including al-
Shabaab and a loose coalition of forces under the banner of 
Hizbul al-Islam have been attacking TFG forces and other 
moderates in Mogadishu in an attempt to forcefully overthrow 
the transitional government. We have clear evidence that 
Eritrea is supporting these extremist elements, including 
credible reports that the government of Eritrea continues to 
supply weapons and munitions to extremists and terrorist 
elements. We have publicly warned Eritrea to desist and stop 
its illegal arming of terrorists immediately, as such support 
threatens the stability of Somalia and the wider region.
    There is also clear evidence that there is an al-Qaeda 
presence in Somalia. In 2008, East African al-Qaeda operative 
Saleh
al-Nabhan distributed a video showing training camp activity in 
Somalia and inviting foreign fighters to travel there for 
training. A small number of senior al-Qaeda operatives have 
worked closely with al-Shabaab leaders in Somalia, where they 
have enjoyed
safe haven. We have credible reports of foreign fighters with
al-Shabaab. This further underscores the importance of urgent 
and decisive support to the TFG and engagement with states 
across the region and beyond to help stabilize Somalia.
    The collapse of the TFG would be detrimental to the long-
term stability of Somalia and it would negate the tremendous 
progress that has been made to date in the Djibouti Peace 
Process and in restoring a semblance of normalcy and peace in 
Somalia. The administration is considering ways in which we and 
other international partners can continue to help and support 
and bolster the Transitional Federal Government, and we will 
continue to support AMISOM.
    Mr. Chairman, that concludes my testimony. I look forward 
to your questions.
    [The prepared statement of Mr. Carson follows:]

  Prepared Statement of Assistant Secretary Johnnie Carson, Bureau of 
       African Affairs, U.S. Department of State, Washington, DC

    Chairman Feingold, Ranking Member Isakson, and distinguished 
members of the subcommittee. Thank you for inviting me to testify at 
this important hearing to discuss the development of a coordinated and 
sustainable strategy toward Somalia. This is my first appearance before 
you as the Assistant Secretary of State for African Affairs. I thank 
you for expeditiously holding a hearing on my nomination and for 
supporting my full Senate confirmation. I look forward to working 
closely with this subcommittee on the various issues that fall under 
this one subcommittee's oversight. Of these numerous concerns, Mr. 
Chairman, you have consistently raised our interests in Somalia and the 
greater Horn of Africa and the importance of the health of our 
relationship with the countries and peoples in the region. I also note 
that Senator Isakson's first trip to Africa as the ranking member 
included Djibouti. I join this subcommittee in its interest.
    As you know, Somalia finds itself embroiled in a cycle of violence 
and instability despite promising efforts in recent years by the 
international community and Somali leadership to create an inclusive 
and stable government. I would like to note, though, that despite the 
best efforts of violent extremists to overthrow the Transitional 
Federal Government (TFG) by force, the TFG remains standing and 
determined to move forward.
    This latest round of fighting occurs as we enter a new chapter in 
the recent history of international efforts to assist Somalia in 
solving its longstanding crisis. Since the overthrow of the Siad Barre 
regime in 1991, there have been several distinct approaches taken by 
the international community to address the many crises that have 
enveloped Somalia. In 1992, the international community authorized the 
United Nations Operation in Somalia, or UNOSOM I, in an effort to stave 
off starvation and a wider humanitarian crisis caused by civil war. 
This effort proved ineffective, and a second U.N. operation, the 
Unified Task Force, or UNITAF, entered Somalia in December 1992 under 
the name Operation Restore Hope. While this operation successfully 
restored some order, UNITAF was eventually replaced by a third mission, 
also known as the United Nations Operation in Somalia, or UNOSOM II. It 
was during the United States participation in UNOSOM II, in October 
1993, that the tragic events described in ``Black Hawk Down'' occurred, 
leading to an eventual withdrawal of U.S. forces, and ultimately, the 
withdrawal of the majority of the international community from Somalia.
    United States reengagement with Somalia did not begin again until 
1996, when our policy shifted to one of containment. For the next 
decade, United States policy focused on containing Somalia's problems 
within the country's borders so the instability did not further 
destabilize the region.
    In 2006, the Islamic Courts Union (ICU) defeated an alliance of 
militias known as the Alliance for the Restoration of Peace and 
Counter-Terrorism and became the first entity since the collapse of the 
Barre regime to exert control over most of South-Central Somalia. This 
change in the balance of power in Somalia was significant, as we faced 
a government in Somalia that was unfriendly to the United States and 
harbored and provided sanctuary to a number of known terrorists. 
Ethiopia's intervention in late 2006 was another turning point that 
resulted in increased American interest in Somalia. Given the threats 
posed by the ICU's harboring of terrorists, the USG's Somalia strategy 
focused on the immediate terrorist threats.
    The Djibouti Peace Process began in 2008 and led to the formation 
of the current Transitional Federal Government, an expanded 
Transitional Federal Parliament that includes members of the Djibouti 
faction of the Alliance for the Re-liberation of Somalia, and the 
election by Parliament of President Sheikh Sharif Sheikh Ahmed. These 
are all significant steps forward for Somalia. Somalia now has at least 
the start of a government that is broadly representative of the Somali 
clan and societal landscape.
    However, Somalia is clearly in crisis. Approximately 43 percent of 
the population of Somalia relies on humanitarian assistance to survive, 
and nearly 500,000 Somalis have fled their country and now live in 
overcrowded refugee camps throughout the region. The TFG controls only 
a small portion of the territory and the vast majority of Somalia is 
controlled by militias, clans, or terrorist organizations. The blight 
of piracy off the coast of Somalia is without question a symptom of the 
instability and insecurity within Somalia; without stability in 
Somalia, there can be no long-term resolution of the piracy problem. 
Furthermore, al-Shabaab, a designated Foreign Terrorist Organization 
(FTO), continues to harbor terrorists, target civilians and 
humanitarian workers, and attempt to overthrow the TFG through violent 
means.
    The resolution of these problems calls for a comprehensive solution 
that provides stability and promotes reconciliation, economic 
opportunity and hope for the Somali people.
    The Obama administration is working to address these challenges. 
The National Security Council (NSC) has brought together the Department 
of State, the Department of Defense, USAID, the intelligence community, 
and a variety of other agencies to work to develop a strategy that is 
both comprehensive and sustainable. Such a strategy must be built 
around our work with international partners, including the United 
Nations, African Union, the European Union, Inter-Governmental 
Authority on Development (IGAD), International Contact Group on Somalia 
(ICG), and the Contact Group on Piracy off the Coast of Somalia, among 
others, to achieve our foreign policy goals in Somalia of political and 
economic stability, eliminating the terrorist threat, addressing the 
dire humanitarian situation, and eliminating the threat of piracy. We 
are also working with other states in the region, as Somalia's 
challenges are intertwined with other conflicts and issues throughout 
the Horn of Africa.
    The United States continues to assist the TFG in the development of 
a Somali security sector, which is crucial for the success of 
governance efforts in Somalia. With Congress' assistance, we have 
already committed to providing $10 million to support the creation of a 
National Security Force as part of this effort, and we are also working 
to strengthen the TFG's capacity so the United States and others in the 
international community can provide additional assistance. We are also 
the largest supporter of the African Union Mission in Somalia (AMISOM), 
which facilitates the delivery of humanitarian assistance to Somalia, 
protects key installations in Mogadishu, and provides political space 
for a Somali-led reconciliation process. Since the deployment of AMISOM 
in 2007, the United States has provided $135 million for logistical and 
equipment support and predeployment training for the Burundian and 
Ugandan forces on the ground. We plan to continue this level of support 
in the future. Furthermore, the United States remains the largest 
bilateral donor of humanitarian assistance to Somalia, having provided 
more than $137 million in emergency food and nonfood assistance to date 
in fiscal year 2010.
    Unfortunately, we do not have the luxury of time in Somalia. In the 
past 2 weeks, violent extremists, including al-Shabaab and a loose 
coalition of forces under the banner of Hizbul al-Islam, have been 
attacking TFG forces and other moderates in Mogadishu in an attempt to 
forcefully overthrow the transitional government. We have clear 
evidence that Eritrea is supporting these extremist elements, including 
credible reports that the Government of Eritrea continues to supply 
weapons and munitions to extremists and terrorist elements. We have 
publicly warned Eritrea to stop its illegal arming of terrorists 
immediately, as such support threatens the stability of Somalia and of 
the wider region, as well as creates a serious obstacle to the 
possibility of a new Eritrean relationship with the United States.
    There is also clear evidence of an al-Qaeda presence in Somalia. In 
2008, East Africa al-Qaeda operative Saleh al-Nabhan distributed a 
video showing training camp activity in Somalia and inviting foreigners 
to travel there for training. A small number of senior al-Qaeda 
operatives have worked closely with al-Shabaab leaders in Somalia, 
where they enjoy safe haven. We have credible reports of foreigners 
fighting with al-Shabaab. This further underscores the importance of 
urgent and decisive support to the TFG, and engagement with states 
across the region and beyond.
    The collapse of the TFG would be detrimental to the long-term 
stability of Somalia, and it would negate the tremendous progress that 
has been made to date in the Djibouti Peace Process and in restoring a 
semblance of normalcy and peace in Somalia. The administration is 
considering ways in which we and our international partners can help to 
support and bolster the TFG, and we will continue to support AMISOM.

    Senator Feingold. Thank you, sir. We'll do 7-minute rounds.
    Thank you for your testimony. I wanted first to ask you 
about our public diplomacy efforts in Somalia. As you know, 
there's a growing mistrust and even resentment of U.S. 
intentions that has developed among Somalis over the last 2 
years. In my view this lingering mistrust undermines our 
ability to engage constructively with different parties there 
and of course can be easily manipulated by al-Shabaab. I have 
encouraged, as I said, the President to consider some kind of 
public statement to indicate his intention to break from past 
policies toward Somalia, a move which I believe could make a 
tremendous positive impression on ordinary Somalis.
    In your thinking, how serious is this mistrust of U.S. 
intentions in Somalia and what public diplomacy efforts are 
being made or could be made to address this problem?
    Mr. Carson. Mr. Chairman, thank you for your question. 
There is no doubt that al-Shabaab and others have helped to 
generate the distrust that some Somalis have of the United 
States. We are working very hard to improve our image and to 
give Somalis a more comprehensive understanding of what the 
United States is doing and wants to do in Somalia.
    I have myself spoken to a number of media groups that have 
access to Somalia in order to indicate to them that our primary 
goal is to promote political reconciliation, peace, and 
stability, and that our desire is to see a strong, stable 
Somalia that we can work with.
    Through our public diplomacy efforts we continued to reach 
out to the media to talk to people, to issue press statements. 
I certainly will take into account and consult with whether it 
is feasible for the Secretary of State to make a statement that 
can be used on VOA, can be used on Al Jazeera and other media 
groups in Somalia. That sounds like a good idea and something 
that we should certainly consider.
    Senator Feingold. I appreciate that and look forward to the 
results. I appreciate the efforts you've described, but what 
I'm also talking about here, in addition to what you've said, 
is high-level public diplomacy. My sense is that well-timed 
statements and phone calls and engagement from senior 
government officials, be it the President, Secretary of State, 
or even Members of Congress, could help bolster ongoing United 
States efforts in Somalia.
    I wrote the President about this. I spoke directly to the 
Secretary of State about this. I spoke directly to the 
Ambassador to the United Nations about this. No one has given 
me a reason why this wouldn't be a good idea, nor suggested 
anything with regard to any intelligence which suggests this 
would be a bad idea. I've seen nothing in my work on the 
Intelligence Committee suggesting this isn't a good idea.
    So I'm wondering what the holdup is in terms of reaching 
out to this government that is trying to stabilize Somalia and 
that is under siege.
    Mr. Carson. Mr. Chairman, I think those are all good 
suggestions and I certainly will pursue them. But let me also 
say that we are in contact with President Sheikh Sharif's 
government, have reassured him of our support. We have 
underlined this to others. Our Ambassador in Nairobi, Mike 
Ranneberger, has been in regular contact with Sheikh Sharif. I 
myself last week met with the TFG Foreign Minister, who was in 
town. One of my deputies met with him on Monday of this week. I 
have been in direct consultation with the U.N. Secretary 
General Special Representative Ould Abdallah to reaffirm our 
commitment to support the TFG. We have provided financial 
assistance in the last 2 weeks to the TFG and we continue to do 
as much as we can to assure governments in the region that we 
support them.
    Senator Feingold. Have you spoken to Sheikh Sharif?
    Mr. Carson. I have not spoken directly with Sheikh Sharif.
    Senator Feingold. If you do, I think obviously that would 
be one step. I've spoken to him. Ambassador Ranneberger, who I 
have enormous regard for, has spoken to him. But there are 
actually people at higher pay grade than all of us who I'm 
talking about, and I believe not only do you need to reach out, 
but people at that level as well.
    Secretary Clinton has announced several new measures to 
combat piracy off Somalia's coast, which I strongly support. 
However, how can we ensure that these measures are coordinated 
within the overall Somalia strategy and do not somehow exist in 
a vacuum?
    Mr. Carson. I think that's excellent. I think in my 
statement I noted that the National Security Council is 
undertaking a comprehensive review of Somali policy. That 
review has not been completed, but I can assure you, Mr. 
Chairman, that the issue of Somali piracy has been folded into 
that review and does not in fact stand out alone. It is 
subsumed under a broader strategy toward Somalia.
    I underscore that our overall policy efforts are aimed at 
promoting political reconciliation in Somalia, political 
stability in that country, which will generate a functioning 
and effective government capable of delivering services to its 
people, administering the central government, and providing 
security.
    We don't have a separate strategy on piracy that is 
distinct from the issue of where we're going on Somalia. It is 
being wrapped into the review that is under way.
    Senator Feingold. Thank you.
    As part of a comprehensive strategy for Somalia, I know you 
and I agree that we have to reexamine our relationships with 
regional players. These press reports of Ethiopian troops 
crossing back into Somalia are very alarming to me and I've 
been concerned for quite some time by Eritrea's unconstructive 
behavior in the Horn, whether it's in Somalia or along the 
Djiboutian border. How can we better engage the Ethiopians so 
they play a constructive role in Somalia and what about our 
relationship with Eritrea? What direction do you see that 
moving in?
    Mr. Carson. First of all with respect to the presence of 
Ethiopian troops, we have no formal confirmation that Ethiopian 
troops have actually gone across the border. There have been a 
number of press reports suggesting a small incursion. We are 
asking our Embassy in Addis to determine what the Ethiopians 
are doing there.
    We agree with you, Senator, that the return of Ethiopian 
troops inside of Somalia will only inflame and worsen the 
situation, rather than lead to an early resolution of the 
problem. We hope that the Ethiopian Government will not in fact 
do anything which will further complicate the effort to find a 
solution to Somalia's problems. We are engaged actively in 
Ethiopia and our Ambassador is in constant contact with Prime 
Minister Meles, warning and expressing our concerns about the 
possible repercussions of Ethiopia's action inside Somalia.
    Senator Feingold. Thank you, Mr. Secretary. I'm going to 
turn it over to Senator Isakson now, but I'll have a couple 
more questions for you.
    Senator Isakson. Thank you, Mr. Chairman. Since you 
mentioned that subject, I traveled to Ethiopia in 2002 and 
spent a good deal of time in both Addis Ababa as well as Awasa, 
south of there.
    Do the terrorist-related organizations or terrorist-
supported organizations in Somalia pose a threat to the 
Ethiopians? Is one of
the reasons for the Ethiopian concern the fact that there are 
terrorist organizations in Somalia which they fear might come 
into Ethiopia?
    Mr. Carson. No question that one of Ethiopia's concerns is 
support that Somalia or Somali groups might provide to groups 
in the Ogaden. They are concerned that weapons and support 
might flow from Somalia into the Ogaden.
    Senator Isakson. My experience there, if you look at a map 
for a second, is that between Eritrea, the Sudan, and Somalia, 
Ethiopia is in a very difficult neighborhood. The country has 
tried for improvements and over the last decade has made many. 
So I am sure part of the Ethiopian concern is that they do not 
want to regress, nor do they want to experience what happened 
in Somalia, in terms of the breakdown of the countryside.
    In terms of Sheikh Sharif, is he as strong a leader as we 
perceive him to be, or is he kind of battened down in Mogadishu 
with the Parliament trying to protect itself?
    Mr. Carson. Sheikh Sharif was elected as the President of 
Somalia through the Djibouti Process. We think that he was a 
compromise candidate who represented the views of the largest 
number of clan participants in that election. We think that he 
offers the best chance for possible reconciliation and peace in 
Somalia that we have seen over the last decade. He is not a 
warlord. He is not a militia man. He is from a rather humble 
background, an educator, and is a man who has sought to unite 
the various clans in Somalia in a more inclusive government.
    We believe that it is important to do as much as we 
possibly can to support this TFG government as one of the last 
opportunities for bringing about stability in that country.
    Senator Isakson. And he was elected by the Parliament, not 
by the people.
    Mr. Carson. That's correct.
    Senator Isakson. But the Parliament was elected by the 
people, is that correct?
    Mr. Carson. Yes.
    Senator Isakson. So you believe him to be a pretty 
representative compromise candidate between all the factions?
    Mr. Carson. Yes. But, sir, it is a very divided society and 
divided deeply along clan lines. The success of any leader is 
based on his or her ability to bring in clans and subclans into 
the central government.
    Senator Isakson. In your testimony you made reference to 
the fact that we have credible reports of foreign fighters 
fighting with al-Shabaab, is that correct?
    Mr. Carson. Yes, sir.
    Senator Isakson. Are those foreign fighters by chance 
Iranian or in any way affiliated with Hezbollah or Hamas?
    Mr. Carson. We don't know the precise nationalities of 
these foreign fighters. We don't know their political 
affiliations. But we do have a growing body of information 
passed on to us that there clearly are foreign fighters 
operating in Somalia. This information comes to us via the 
Ugandan military, which is a part of AMISOM. It comes to us via 
the U.N. It comes to us via Sheikh Sharif's government. It 
comes to us via observations by the media.
    But yes, a growing body of information. We do not know how 
many people, how many foreign fighters there are. There have 
been claims of upward of 400 people. We think that these are 
probably a significant exaggeration, but there are clearly non-
Somalis who are there.
    Senator Isakson. We do have evidence that al-Qaeda is there 
as well, correct?
    Mr. Carson. We know that individuals who are directly 
affiliated with al-Qaeda have been in Somalia. These 
individuals are principally Fizul Harun and Nabhan Mohamed. 
These are individuals who were responsible for the destruction 
of the U.S. Embassies in Dar es Salaam and Nairobi in 1998 and 
the destruction of the Paradise Hotel in 2002. They clearly are 
the leaders of the East Africa al-Qaeda cell. They have been in 
Somalia, but they have also been in and along the northeastern 
coast of Kenya as well.
    Senator Isakson. We are assisting the African Union troops 
at AMISOM with regard to the distribution of humanitarian aid 
into Somalia's countryside, is that correct?
    Mr. Carson. Yes.
    Senator Isakson. We are doing the same thing in the Sudan, 
but we have had great difficulty. A month ago, two NGO workers 
were killed in the Sudan. What is the activity against AMISOM 
troops and the humanitarian aid personnel? Are the troops, the 
African Union troops, able to protect those NGOs?
    Mr. Carson. No. Let me just correct. The AMISOM troops are 
there to carry out several missions. The first is to protect 
key installations, the airport and the harbor in Mogadishu; to 
provide security to key government buildings, the Presidential 
palace and the Parliament; third, to protect key TFG government 
ministers; and last, to do limited training of TFG security 
forces.
    Senator Isakson. So there is no protection effort for the 
NGOs that are there?
    Mr. Carson. No, there is not.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Isakson.
    I'll start another round. Mr. Assistant Secretary, when can 
we expect the interagency review to be completed, and will 
Congress be notified when that happens?
    Mr. Carson. I can't predict a precise time. I know that the 
process is being carried out in an expeditious manner. I would 
hope that we would see something in the next 30 to 60 days. And 
yes, I would recommend that we brief you and other members of 
the committee once that review is completed and carried out. 
You have clearly demonstrated an interest in seeing the 
strategy and learning what it is. I think that we will share 
that with you, and I will certainly encourage it.
    Senator Feingold. Thank you, Mr. Assistant Secretary.
    Just to add a point to the very effective questions by the 
ranking member, fleshing out the background of Sheikh Sharif, I 
certainly can't vouch for this man nor would I attempt to, but 
to have an accurate picture, this is the man who was the head 
of the Islamic Courts, which we identified as being obviously a 
problematic entity, who has now taken on the task of trying to 
unify the various elements within Somalia at enormous risk, 
because al-Shabaab is, I'm sure, outraged that he has done 
this.
    So it's an interesting aspect of what he's done that I 
think should help inform our view of him and our willingness to 
work with him.
    The State Department's report issued this month on the 
implementation of our strategy toward Somalia describes the 
importance of providing operational support to Somali security 
forces loyal to the transitional government, and I agree that 
building the security sector is important and the United States 
should have a role in this. We have to ensure that steps are 
taken to improve accountability and the human rights record of 
the security forces. Obviously, the past record of those forces 
is pretty appalling.
    How can we ensure such steps are taken as we provide any 
assistance to a security sector in Somalia?
    Mr. Carson. We are doing as much as we can to vet the 
individuals who are a part of the Somali security force 
leadership. This is an ongoing process. It is a difficult 
process given the fact that we are not present on the ground. 
But we consider this to be extremely important and we are 
attentive to it and trying to do as best we can to ensure that 
any assistance that we give is given to individuals who have 
not, in fact, engaged in atrocities, war crimes, or any 
violations of civil rights.
    Senator Feingold. I'm also very concerned by these reports 
that al-Shabaab and its allied militias are gaining momentum 
and territory, including strategic towns in central Somalia. 
Beyond simply arming them, are there specific ways we can help 
the transitional government to peel off moderates and fracture 
the insurgency? And what about the foreign fighters that 
Senator Isakson was talking about that are being reported? What 
can be done to confront their role in the insurgency?
    Mr. Carson. Well, with respect to foreign fighters, we are 
working with neighboring countries to encourage them to make 
sure that their capitals and their airports, are not used as a 
conduit for foreign fighters going in. We have strongly 
encouraged the Eritrean Government to cease providing any 
support to al-Shabaab, to stop foreign fighters from coming 
through their territory to enter Somalia, and to play a more 
constructive role in trying to find a solution to Somalia's 
problems.
    We will continue to work with neighboring states, including 
countries like Kenya, to make sure that they are not 
unwittingly used as way stations for people coming in from 
outside, transiting their airports, going into Somalia to work 
for al-Shabaab.
    Senator Feingold. Thank you.
    Anything further, Senator Isakson?
    Senator Isakson. Just a question out of curiosity. We talk 
about a coordinated policy for us to support the temporary 
government that has been formed in Somalia. Is there a 
coordination of all the factions outside of Mogadishu? You 
referred to the clans, you referred to al-Shabaab, and you 
referred to some al-Qaeda influence and foreign fighters. Do 
these people have different and separate interests in the 
country, all of which are disruptive, or is there some degree 
of coordination between them against the government?
    Mr. Carson. Well, over the last 2 weeks and certainly 
beginning around May 8 and 9, there appeared to be a concerted 
effort by
al-Shabaab and a number of groups to work together to unseat 
the TFG. That degree of coordination seems to be fading away as 
the TFG has been able to maintain its control over most of 
Mogadishu.
    The core element of unity inside of Somalia is clan and 
subclan. Clan and subclan interests over time appear to trump 
everything else in terms of loyalty. It's more important than 
religion. It's more important than politics. It is frequently 
more important than the central government and the state.
    What we have seen over time is that some issues will bring 
clans together, groups together, to work against an issue, and 
then they will fall apart once that threat and issue has been 
resolved.
    Senator Isakson. Thank you, Mr. Chairman.
    Thank you, Johnnie.
    Senator Feingold. Thank you, Senator Isakson.
    Mr. Assistant Secretary, thank you. It's a pleasure to be 
working with you. We can now go to the second panel.
    Mr. Carson. Thank you, Mr. Chairman. Thank you.
    Senator Feingold. Thank you very much.
    Dr. Menkhaus, would you like to begin. Again, I'd ask that 
these witnesses limit your remarks, oral remarks, to 5 minutes. 
Of course, we will put your full statement in the record. Go 
ahead, doctor.

STATEMENT OF DR. KEN MENKHAUS, PROFESSOR OF POLITICAL SCIENCE, 
                DAVIDSON COLLEGE, CHARLOTTE, NC

    Dr. Menkhaus. Good morning, Senator Feingold, Senator 
Isakson. Thank you for the opportunity to participate in this 
discussion on United States policy in Somalia.
    This hearing has been convened at a moment when Somalia is 
undergoing yet another dramatic political crisis, the latest in 
a long 20-year history of state collapse, warfare, and human 
suffering. Whatever the outcome of this latest round of 
fighting, Somalia will very likely remain a front-burner 
foreign policy challenge for the Obama administration.
    We're very fortunate to have the experienced leadership of 
Ambassador Johnnie Carson, the new Assistant Secretary for 
African Affairs, at this time of crisis in Somalia. He 
understands the intricacies of the Horn of Africa better than 
anyone in or out of the U.S. Government, possesses invaluable 
diplomatic experience in the region, and has the leadership 
skills to help forge and maintain interagency consensus, which 
is essential for a coordinated United States strategy toward 
Somalia.
    In recent years the United States and its regional and 
global allies have struggled to forge a coherent and effective 
strategy for Somalia. In part, this has been a function of the 
uniquely complex problems associated with the Somali crisis. As 
the crisis has lengthened, the difficulties have grown. 
Reliable information on which to build policy is scarce. The 
resilience of internal spoilers has increased while many of the 
country's most dedicated civic leaders and peace-builders have 
been silenced, killed, or forced to flee the country. External 
actors have created additional impasses by playing out proxy 
wars in Somalia or funding jihadist violence.
    In this increasingly complex environment, external state-
building, peace-building, and counterterrorism initiatives have 
at times been based on flawed analysis and have produced 
unintended consequences which have left Somalia and its 
regional neighbors even more insecure.
    The United States also faces the challenge of deconflicting 
its multiple objectives in Somalia. Over the past decade, 
American counterterrorism, state-building, and humanitarian 
initiatives have generally been unintegrated and have at times 
worked at cross-purposes.
    The impact of the 2007-08 Ethiopian military occupation of 
southern Somalia has created still more challenges. That 
occupation and the destructive insurgency and counterinsurgency 
violence that it triggered helped to fuel an unprecedented 
level of radicalism in Somali society. Because the United 
States is widely blamed by Somalis for backing the Ethiopian 
occupation, anti-Americanism has been very high in the country 
and trust of American motives and policies low.
    This has been ameliorated somewhat by the January 2009 
Ethiopian withdrawal, the establishment of a more broad-based 
transitional government, and Somali expectations of a shift in 
United States policy under the Obama administration. But there 
is still a high level of mistrust of American policies and 
residual anger at the United States.
    In addition, formulation of a coherent strategy toward 
Somalia is complicated by the fact that the Somali crisis is 
entangled in a regional conflict complex which includes the 
Ethiopian-Eritrean impasse, the insurgency and counter-
insurgency in Ethiopia's Somali region, and the long-running 
tensions between Ethiopian and Somali security interests and 
territorial claims. Stand-alone strategies to deal with Somalia 
have been repeatedly undermined by these other regional 
dynamics.
    A final challenge to creating an effective and coherent 
strategy is the fact that Somalia is currently in the midst of 
a major crisis which could result in one of several very 
different scenarios. The U.S. Government can and must 
prioritize its broad objectives and desired outcomes in 
Somalia, but in the face of considerable uncertainty about the 
political trajectory of the country in the weeks and months 
ahead a fully developed country or regional strategy may 
currently be beyond reach.
    In weeks and months to come, one of several scenarios could 
emerge. In a best case outcome, the TFG will succeed in 
rallying support and pushing back the Islamist insurgency, 
negotiating with some insurgents and marginalizing or defeating 
the rest. This outcome would open the door to a U.S. strategy 
privileging timely and well-targeted state-building support to 
the TFG as a means of consolidating those gains. It would also 
produce improved security for delivery of badly needed 
humanitarian assistance.
    In a worst case outcome, the Shabaab and Hizbul al-Islamiya 
defeat the TFG and take control over most or all of south-
central Somalia and the capital. Because of Shabaab's ties to 
al-Qaeda and the presence of foreign advisers and fighters in 
Shabaab, this scenario promises to draw Ethiopian forces back 
into Somalia and will create pressure for the United States to 
privilege counterterrorism interventions into Somalia as well. 
Somalia could then become the site of regional or even 
globalized armed conflict.
    An insurgency victory over the TFG could also produce a 
different outcome, one in which two rival Islamist groups begin 
fighting among themselves. There are sharp tensions over 
leadership, ideology, foreign patronage, clan interests, and 
tactics both between and within Shabaab and Hizbul al-Islamiya 
and many Somalis anticipate a battle between them. Armed 
clashes pitting Shabaab and Hizbul al-Islamiya would present 
the United States with no obvious protagonist to support and 
would instead place emphasis on the need to avoid taking 
actions which would bring the two warring parties' hard-line 
groups together.
    A final scenario is the reversion to status quo ante, in 
which no one side consolidates control over the country, which 
is left divided up into a variety of warring fiefdoms, some 
controlled by the TFG, others held by Shabaab, Hizbul al-
Islamiya, clan militia, warlords, armed business groups, 
independent city-states, and others. This outcome would pose a 
major problem for U.S. state-building initiatives and would 
tempt counterterrorism operations to forge alliances with local 
nonstate actors, as was the practice in the past. That policy 
came at some cost and was in many respects counterproductive, 
however, and would need careful scrutiny.
    In the interest of time, I won't share some of the remarks 
that I had which I hoped would contribute toward a discussion 
of United States strategy toward Somalia, but I refer you to my 
written remarks.
    Thank you.
    [The prepared statement of Dr. Menkhaus follows:]

  Prepared Statement of Ken Menkhaus, Professor of Political Science, 
                     Davidson College, Davidson, NC

                              introduction
    Senator Feingold, subcommittee chairman, and Senator Isakson, 
ranking member, I thank you for the opportunity to participate in this 
discussion of United States policy on Somalia. This hearing has been 
convened at a moment when Somalia is undergoing yet another dramatic 
political crisis, the latest in a long 20-year history of state 
collapse, warfare, and human suffering. Whatever the outcome of this 
latest round of fighting, Somalia will very likely remain a front-
burner foreign policy challenge for the Obama administration.
    We are very fortunate to have the experienced leadership of 
Ambassador Johnnie Carson, the new Assistant Secretary for African 
Affairs, at this time of crisis in Somalia. Ambassador Carson 
understands the intricacies of the Horn of Africa better than anyone in 
or out of the United States Government, possesses invaluable diplomatic 
experience in the region, and has the leadership skills to help forge 
and maintain interagency consensus which is essential for a coordinated 
United States strategy toward Somalia. Ambassador Carson and his 
colleagues may face only poor options in Somalia, but I feel confident 
that the administration has assembled an excellent team on Africa 
policy.
                               challenges
    In recent years, the United States and its regional and global 
allies have struggled to forge a coherent and effective strategy for 
Somalia. In part this has been a function of the uniquely complex 
problems associated with the Somali crisis, which has proven impervious 
to two decades of external efforts to bring an end to its state of 
collapse and armed conflict. As the crisis has lengthened, the 
difficulties have grown. Reliable information on which to build policy 
is scarce, a function of extraordinarily high levels of insecurity in 
the country. The resilience of internal spoilers has increased, while 
many of the country's most dedicated civic leaders and peace-builders 
have been silenced, killed, or forced to flee the country. External 
actors have created additional impasses by playing out proxy wars in 
Somalia, or funding jihadist violence. In this increasingly complex 
environment, external state-building, peace-building, and 
counterterrorism initiatives have at times been based on flawed 
analysis and have produced unintended consequences which have left 
Somalia and its regional neighbors even more insecure.
    The United States also faces the challenge of deconflicting its 
multiple objectives in Somalia. Over the past decade, American 
counterterrorism, state-building, and humanitarian initiatives have 
generally been un-integrated and have at times worked at cross-
purposes.
    The impact of the 2007-08 Ethiopian military occupation of southern 
Somalia has created still more challenges for effective strategy. That 
occupation, and the destructive insurgency and counterinsurgency 
violence it triggered, helped to fuel an unprecedented level of 
radicalism in Somali society. Because the United States is widely 
blamed by Somalis for backing the Ethiopian occupation, anti-
Americanism has been very high in the country, and trust of American 
motives and policies low. This has been ameliorated somewhat by the 
January 2009 Ethiopian withdrawal, the establishment of a more broad-
based transitional government, and Somali expectations of a shift in 
United States policy under the Obama administration. But there is still 
a high level of mistrust of American policies and residual anger at the 
United States that poses additional obstacles to effective strategies.
    In addition, formulation of a coherent strategy toward Somalia is 
complicated by the fact that the Somali crisis is entangled in a 
regional conflict complex which includes the Ethiopian-Eritrean 
impasse, the insurgency and counterinsurgency in Ethiopia's Somali 
region, and the long-running tensions between Ethiopian and Somali 
security interests and territorial claims. Stand-alone strategies to 
deal with Somalia have been repeatedly undermined by these other 
regional dynamics.
                                scenarios
    A final challenge to creating an effective and coherent strategy is 
the fact that Somalia is currently in the midst of a major crisis which 
could result in one of several very different scenarios. The United 
States Government can and must prioritize its broad objectives and 
desired outcomes in Somalia, but in the face of considerable 
uncertainty about the political trajectory of the country in the weeks 
and months ahead, a fully developed country or regional strategy may be 
beyond reach.
    At present, the U.N.-backed Transitional Federal Government (TFG) 
is under siege by a loose coalition of hard-line Islamist insurgencies, 
most notably Shabaab and Hisbul Islamiyya (the latter led by Hassan 
Dahir Aweys, a designated terror suspect). Several months ago, when 
Ethiopian forces departed and a new government in the TFG was formed 
featuring moderate Islamist leadership, there was real hope that 
Shabaab was in trouble. It had thrived mainly as a resistance movement 
against Ethiopian occupation and the unpopular leadership of then-TFG 
president Abdullahi Yusuf. With those two nemeses out of the picture, 
Shabaab had much less appeal to Somalis, who find its radical 
application of sharia law, its desecration of sufi tombs, and its close 
links to al-Qaeda very disturbing. The hope was that Somali 
communities, clans, and factions would rally in support of the new TFG. 
But the TFG's ability to stand up a government has been disappointing, 
and Shabaab and Hisbul Islamiyya have drawn on external support from 
al-Qaeda, Eritrea, and other sources to launch an offensive that has 
captured strategic real estate in Mogadishu and southern Somalia and 
which threatens to drive the TFG out of the capital.
    In coming weeks and months, one of several scenarios could emerge:
    1. In a best-case outcome, the TFG will succeed in rallying support 
and pushing back the Islamist insurgency, negotiating with some 
insurgents and marginalizing or defeating the rest. This outcome would 
open the door to a U.S. strategy privileging timely and well-targeted 
state-building support to the TFG as a means of consolidating those 
gains, and would produce improved security for delivery of badly needed 
humanitarian assistance.
    2. In a worst-case outcome, the Shabaab and Hisbul Islamiyya defeat 
the TFG and take control over most or all of south-central Somalia and 
the capital. Because of Shabaab's ties to al-Qaeda and the presence of 
foreign advisors and fighters in Shabaab, this scenario promises to 
draw Ethiopian forces back into Somalia and will create pressure for 
the United States to privilege counterterrorism interventions into 
Somalia. Somalia could then become the site of regional or even 
globalized armed conflict.
    3. An insurgency victory over the TFG could also produce a 
different outcome, one in which the two rival Islamist groups begin 
fighting among themselves. There are sharp tensions over leadership, 
ideology, foreign patronage, clan interests, and tactics between and 
within Shabaab and Hisbul Islamiyya and many Somalis anticipate a 
battle between them. Armed clashes pitting Shabaab and Hisbul Islamiyya 
would present the United States with no obvious protagonist to support, 
and would instead place emphasis on the need to avoid taking actions 
which would bring the two warring hard-line groups together.
    4. A final scenario is a reversion to status quo ante, in which no 
one side consolidates control over the country, which is left divided 
up into a variety of warring fiefdoms--some controlled by the TFG, 
others held by Shabaab, Hisbul Islamiyya, clan militias, warlords, 
armed business groups, independent city-states, and others. This 
outcome would pose a major problem for U.S. state-building initiatives 
and would tempt counterterrorism operations to forge alliances with 
local nonstate actors, as was the practice in years past. That policy 
came at some cost and was in many respects counterproductive, however, 
and would need careful scrutiny.
                       toward a somalia strategy
    I would like end my remarks by sharing several observations and 
recommendations toward the development of a Somalia strategy:

  <bullet> In the short run, there is little the United States can do 
        to shape the outcome of the current fighting between Islamist 
        insurgents and the TFG. This ball is in play, and while some 
        timely financial support to the TFG could help shore it up, 
        direct external military interventions are likely to play into 
        the hands of Shabaab and undermine rather than strengthen the 
        credibility of the TFG.
  <bullet> A regional rather than country-based strategy is more 
        difficult to devise but ultimately more likely to bear fruit. 
        This must include close scrutiny of the points of convergence 
        and divergence in U.S. interests and the interests of regional 
        allies, and a willingness to address those points of divergence 
        frankly.
  <bullet> U.S. strategy in the region must harmonize to the maximum 
        extent possible its counterterrorism, state-building, and 
        humanitarian objectives and programs. And harmonization must 
        not come to be synonymous with counterterrorism objectives 
        simply subsuming other policies.
  <bullet> United States strategy must be informed by more accurate, 
        nuanced assessment of both Somali actors and foreign interests 
        in the country. Oversimplified analyses have at times led to 
        serious errors by external actors. The fact that Somalia is a 
        very complex crisis it is not a license to simplify, it is an 
        obligation to take the time to understand.
  <bullet> The United States currently enjoys a good position in the 
        Somali political debate. We support the moderate Islamist 
        governance of the TFG, a broad-based and inclusive government 
        coalition, a negotiated end to the current fighting, an end to 
        foreign interference in Somalia's internal affairs, peaceful 
        coexistence with regional neighbors, and peace. These are very 
        much shared values with the vast majority of Somali people. By 
        contrast, al-Qaeda is urging Somalis to kill one another in the 
        name of a radical, Wahhabist interpretation of Islam, and 
        because the current government is too willing to seek 
        coexistence with Ethiopia and the West. Al-Qaeda's position is 
        quite unpopular with Somalis, who deeply resent foreigners 
        imposing their ideological wars on the Somali people. This is a 
        big advantage for the United States and one we must not 
        squander.
  <bullet> United States interests are best served by maximizing the 
        extent to which the current conflict in Somalia is defined as 
        an internal Somali affair. By contrast, Shabaab and Hisbul 
        Islamiyya's interests are served when the conflict can be 
        regionalized or globalized, framed as a ``Somali versus 
        foreigner'' clash. This puts a premium on strategies which work 
        to keep the Ethiopian military out of Somalia.
  <bullet> Piracy off the coast of Somalia must be understood and 
        treated as a second order security threat, one that 
        international shipping companies consider manageable. 
        Antipiracy efforts must not be allowed to compromise policies 
        designed to address the first order security concern in the 
        country, which is the increased activity of al-Qaeda in support 
        of Shabaab in southern Somalia. Antipiracy initiatives which 
        feature capturing or killing of Somali youth risk inflaming 
        anti-Americanism in Somalia, which will play into the hands of 
        the Shabaab.
  <bullet> United States policies which maximize political space for 
        Somalis to negotiate--especially the space for the TFG to reach 
        deals with more pragmatic elements of the Islamist insurgents--
        will be of great assistance in promoting an end to the crisis. 
        Conversely, United States policies which ``redline'' Somali 
        groups and movements as terrorist reduce negotiating space for 
        the moderates. Somali political affiliations are much more 
        fluid and pragmatic than we usually presume.
  <bullet> In the event of a worst-case outcome, in which the capital, 
        Mogadishu, and most of Somalia falls into the hands of hard-
        line Islamists with ties to al-Qaeda, the most effective short-
        term policy may simply be to wait rather than rush to a 
        military or political response. Somalis have a long history of 
        using, and then discarding, foreigners and their ideologies 
        once they are no longer of use, and there are reasons to 
        anticipate sharp differences between al-Qaeda and its globalist 
        agenda and the more nationalist agenda of the Somali hard-line 
        Islamists. Somalia's hard-line Islamists will face the 
        country's many faultlines--clan tensions, leadership rivalries, 
        and ideological splits--and could well be pulled down by those 
        centrifugal forces. Put another way, in the face of a worst-
        case scenario, Somali society may possess its own self-
        correcting mechanisms to deal with foreign and local radicals, 
        and those mechanisms should be given a chance before we rush 
        into risky military solutions. It is worth recalling that in 
        the early 1990s al-Qaeda attempted to make inroads into Somali-
        inhabited East Africa and, like so many foreigners bringing 
        ambitious political projects to Somalia, got its fingers burnt. 
        If al-Qaeda does attempt to exploit Somalia as a new base or 
        safe haven, we should work to ensure that the country becomes 
        as much a quagmire for al-Qaeda as it has been for everyone 
        else.

    Senator Feingold. Thank you, doctor.
    Ms. Scribner.

    STATEMENT OF SHANNON SCRIBNER, SENIOR POLICY ADVISOR ON 
      HUMANITARIAN RESPONSE, OXFAM AMERICA, WASHINGTON, DC

    Ms. Scribner. Good morning, Mr. Chairman and Senator 
Isakson, and thank you for the opportunity to testify today on 
developing a coordinated and sustainable United States strategy 
toward Somalia. Oxfam is grateful for the work this committee 
has done and in particular you, Senator Feingold, for your 
leadership in drawing attention to the humanitarian situation 
affecting almost half of the country.
    Oxfam has been working in Somalia since the 1960s. Since 
the start of 2008, we delivered aid--we have been delivering 
aid to over 400,000 Somalis. Through a network of Somali 
partner organizations, we provide over 80,000 hot meals a day 
to people in Mogadishu, water and sanitation services to over 
200,000 people in the Afgooye Corridor, which is about 18\1/2\ 
miles southwest of Mogadishu, and we are helping 70,000 people 
rebuild their livelihoods in central and southern Somalia.
    In my testimony today, I will be focusing on the 
humanitarian situation and making recommendations on steps the 
U.S. Government can take to address the situation as part of a 
coordinated U.S. strategy.
    Somalia is the site of world's worst humanitarian crisis. 
The combination of conflict and drought has led to the 
displacement of up to 1.8 million Somalis and more than 3 
million people are dependent on aid. Somalia is also one of the 
world's most challenging environments for aid workers. Forty 
aid workers have been killed since the beginning of 2008 and 
most of them have been Somalis.
    Half a million Somalis are finding refuge outside Somalia's 
borders and approximately 250,000 of these refugees now inhabit 
the overcrowded Dadaab camps in northern Kenya. The withdrawal 
of Ethiopian troops at the beginning of this year initially 
improved civilian safety in some areas, evidenced by the 
tentative return of up to 65,000 people to Mogadishu, and 
marginally improved access for aid workers. But over the last 
few weeks, as we have heard, recent fighting between the 
Transitional Federal Unity Government and opposition groups in 
Mogadishu has claimed civilian lives and sparked a new wave of 
displacement.
    Beyond the obvious humanitarian impact of the ongoing 
conflict, the country faces drought conditions unseen since the 
1991 famine, which is killing livestock at an alarming rate. 
Despite the many operational challenges and the shrinking 
operational space, Oxfam is still responsibly delivering aid 
programs. We work through proven and trusted local Somali NGOs, 
which come from the beneficiary communities, making them 
accountable not only to us, but also to their communities. 
These communities are often involved in the design, 
implementation, and monitoring of programs and as a result they 
protect their programs from third parties vying for control 
over territory.
    It is critical to underscore that in order to successfully 
continue our work aid agencies must be perceived by communities 
and the warring parties as neutral and impartial. As the United 
States sets out a new strategy for Somalia, it is important 
that the strategy does not undermine aid operations and 
preserves at a minimum the limited operating space that we 
have. In the past, air strikes in Somalia have negatively 
impacted humanitarian access by casting suspicion on aid 
workers, which is often followed by threats and retributions. 
Likewise, restrictive Office of Foreign Asset Control licensing 
could slow down the delivery of urgently needed aid.
    It is important to note that there are a range of actors--
al-Shabaab, which there are many factions within al-Shabaab; 
the foreign fighters that have been mentioned; clan militias 
and criminal groups--fighting for control of territory. While 
conflict over who is in control is negatively impacting aid 
operations, the control over day-to-day administration of aid 
is to the most part done through local clan structures.
    My submitted testimony touches on other issues affecting 
humanitarian response, such as widespread abuses by all 
parties, security sector reform, peacekeeping, and the 
importance of a regional approach. But with the minute I have 
remaining I would just like to make six recommendations on how 
a coordinated and sustainable United States strategy toward 
Somalia can improve the humanitarian situation.
    As mentioned, it must preserve the limited humanitarian 
operating space. It should address the serious public health 
crisis unfolding in Dadaab by pressing the Kenyan Government to 
authorize UNHCR to start work on a new refugee camp and ensure 
that the border remains open to those that are fleeing the 
conflict.
    We need to hold parties accountable for abuses. All parties 
have committed abuses and acted with impunity on the ground.
    It must prevent security sector reform and peace-building 
from becoming part of the problem. While efforts to bolster 
security are necessary, support to security forces must be 
transparent and accountable to prevent abuses.
    And any U.N. peacekeeping force should have wide acceptance 
by Somalis and a peace to actually keep. Otherwise they risk 
being drawn into the conflict.
    It should foster credible Somali-led political and 
governance processes. This means doing things the Somali way 
with their consensus-building and power-sharing. The United 
States should not support specific individuals or factions.
    Finally, ensure that any strategy for Somalia has a 
regional approach. Somalia shouldn't be dealt with in 
isolation, as peace in Somalia means engaging and resolving 
issues with the neighboring countries.
    Thank you again for the opportunity to testify. I'm happy 
to take questions.
    [The prepared statement of Ms. Scribner follows:]

   Prepared Statement of Shannon Scribner, Senior Policy Advisor on 
          Humanitarian Response, Oxfam America, Washington, DC

    Mr. Chairman, Senator Isakson, and members of the committee, thank 
you for the opportunity to testify today on the humanitarian situation 
in Somalia and the importance of a coordinated and sustainable United 
States strategy. Oxfam is extremely grateful for the work this 
committee has done, in particular you, Senator Feingold, in drawing 
attention to the humanitarian situation affecting almost half of the 
country.
    Oxfam America is an international development and relief agency 
committed to developing lasting solutions to poverty, hunger, and 
social injustice. We are part of a confederation of 13 Oxfam 
organizations working together in more than 100 countries with over 
3,000 local partners around the globe.
                      oxfam's response in somalia
    We have been working in Somalia since the 1960s, providing 
humanitarian and capacity-building assistance. Since the start of 2008, 
we have spent more than $7 million on emergency programs delivering aid 
to over 400,000 Somalis with a network of Somali partner organizations. 
In Mogadishu, we are part of a consortium working with a local partner 
to provide over 80,000 hot meals a day to the most vulnerable people. 
Together with the same partner, we have just finalized the design phase 
of a community therapeutic care program for severely malnourished 
children. In the Afgooye Corridor, about 18.5 miles southwest of 
Mogadishu, we are providing water and sanitation services to over 
200,000 people displaced from Mogadishu and the surrounding areas. In 
central and southern Somalia, we are assisting 70,000 people to rebuild 
the livelihoods they have lost as a result of the crisis in their 
country.
    In my testimony today, I will be focusing on the humanitarian 
situation inside the country and in the region and making 
recommendations on steps the U.S. Government can take to address the 
situation as part of a coordinated U.S. strategy.
                     current humanitarian situation
    Somalia remains the site of the world's worst humanitarian crisis. 
The combination of conflict and drought have led to more than 3 million 
Somalis dependent on aid within the country and the displacement of up 
to 1.8 million. Somalia is also one of the world's most challenging 
environments for aid workers and 40 of them, mostly Somalis, have been 
killed since the beginning of 2008. Half a million Somalis are finding 
refuge outside Somalia's borders in Kenya, Djibouti, Ethiopia, and 
Yemen. Over 250,000 of these refugees now inhabit the overcrowded 
Dadaab camps in northern Kenya. While the northern regions of Puntland 
and Somaliland have both achieved relative degrees of stability and 
security, the south and central regions in Somalia remain unstable and 
access for aid organizations extremely difficult.
                    latest humanitarian development
    The withdrawal of Ethiopian troops in January 2009 initially 
improved civilian safety in some areas--evidenced by the tentative 
return of up to 65,000 people to Mogadishu between January and April of 
this year. This marginally improved the ability of humanitarian actors 
to access people in need with the removal of roadblocks on major axes. 
But, over the last few weeks, recent fighting between the Transitional 
Federal Unity Government (TFG) and opposition groups erupted in the 
Somali capital of Mogadishu claiming the lives of civilians, and 
sparking a new wave of displacement. Hospitals in central Mogadishu are 
overwhelmed and among the newly displaced are families that had 
recently returned home following a period of relative peace in 
Mogadishu. Many of the displaced are heading toward the Afgooye 
Corridor. As of yesterday, it has been reported that there are close to 
60,000 new displacements into the corridor.
    Beyond the obvious humanitarian impact of the ongoing conflict, the 
country faces drought conditions unseen since the 1991 famine and 
meteorologists are warning of an 80-percent chance of drier than normal 
conditions in the Horn of Africa through 2009. Drought conditions 
continue to ravage livelihoods, particularly among pastoralist 
populations as livestock are dying and wasting at an alarming rate.
    Despite the operational challenges, it remains possible to 
responsibly implement aid programs, and it is crucial that aid 
operations continue, and even expand where possible. Being able to 
operate within an insecure environment is largely based upon the 
perceptions of communities and warring parties as to whether we are 
operating neutrally and impartially. Oxfam works with proven and 
trusted local Somali NGOs which come from the beneficiary communities 
so they are accountable not only to us but to their communities. We 
also have a team of high-qualified Somali engineers and other technical 
experts who visit and monitor the programs we are funding.
                         humanitarian obstacles
    While our reach is limited due to security, aid is saving lives and 
livelihoods in Somalia. Aid agencies have access at the neighborhood, 
district and camp levels but this access must be protected. As the 
United States sets out a new strategy for Somalia, it is critical that 
the strategy does not undermine aid operations and preserves the 
limited operating space. In the past, United States airstrikes in 
Somalia have negatively impacted humanitarian access by casting 
suspicion on aid workers, followed by threats and retributions. 
Likewise, restrictive Office of Foreign Asset Control (OFAC) licensing 
could slow down the delivery of urgently needed aid, and so it is 
important that a workable middle ground be found on the OFAC issue that 
enables exemptions for those aid agenices working in al-Shabaab 
controlled territory (similar to the OFAC exemption granted to 
organizations working in Hezbollah territory in Lebanon). It is 
important to note that no matter who is in control of areas where we 
work, Oxfam's partners work directly within local clan structures, 
which continue to exercise effective control over day-to-day 
administration of aid.
    It is also important to point out that there are a range of 
actors--al-Shabaab, foreign fighters, militias, and criminal groups--
impacting our work on the ground. In Oxfam's case, it is our community-
based approach that allows our partners to deliver aid because they 
involve the communities in the design, implementation, monitoring and 
evaluation of programs and as a result, the communities protect the 
program from parties vying for control of territory.
                 refugee flows to neighboring countries
    The humanitarian challenges are not limited to Somalia. Kenya's 
northeastern province, Dadaab, is host to three refugee camps 
established in 1991. Originally designed to accommodate 90,000 
refugees, Dadaab now constitutes the largest refugee site in the world 
with 250,000 mostly Somali residents. In January 2007, the Kenyan 
Government closed its border with Somalia but more than 100,000 have 
nonetheless arrived in Dadaab over the past 2 years, mostly from the 
conflict-affected areas of Mogadishu and Lower Juba. The high number of 
refugees in recent months has stretched resources and infrastructure 
beyond capacity and there is a lack of space on which to build a new 
camp unless the Kenyan Government authorizes new land to build an 
additional camp. In March, an Oxfam assessment report showed a lack of 
basic services, severe overcrowding leading to more than 20 cases of 
cholera, and a lack of funding. Half of the people in the camps do not 
have access to enough water and women and children--who make up over 
half Dadaab's population--rarely have accesss to adequate latrines.
                      the need for accountability
    Since the collapse of the Somali state in 1991 there have been 
widespread abuses against civilians. The lack of accountability for 
past and current crimes, reinforce a sense of impunity and further 
fuels conflict.
    Since early 2007, there have been reports of widespread and 
systematic attacks on civilians, journalists, aid workers and human 
rights activists by all of the warring parties. The failure of the 
international community to hold these parties accountable for serious 
breaches of international humanitarian and human rights laws has 
contributed to a climate of impunity in Somalia.
    Somalia is at a pivotal transitional moment and there is an 
opportunity for the new Transitional Federal Unity Government to draw a 
line with the past, demonstrate genuine willingness to end the 
prevailing climate of impunity, and gain the confidence of the Somali 
people.
                security sector reform and peacekeeping
    At the donors' conference last month in Brussels, the United States 
and others pledged increased resources for the TFG and more than $250 
million for security efforts to bring order to the country. While 
efforts to bolster security are necessary, there needs to be 
recognition that recent international interventions in Somalia's 
security sector have exacerbated problems rather than eased them. For 
example, the United Nations Development Program gave direct financial 
support for police salaries and some of these police were implicated in 
serious human rights abuses.
    A key component of the international community's engagement in 
Somalia is the African Union Peacekeeping Mission in Somalia (AMISOM). 
AMISOM's mandate is to protect key TFG officials and infrastructure, 
support the training of Somali security forces, and create security 
conditions conducive to the delivery of humanitarian assistance. The 
force has never been adequately staffed or resourced but in January 
2009, the United Nations Security Council authorized the use of U.N. 
assessed peacekeeping contributions to fund a U.N. support package, 
including medical and communications support, and the creation of a 
trust fund to marshal voluntary contributions to the force. Discussion 
has been underway of deploying a multidimensional peacekeeping 
operation.
                           regional stability
    The situation in Somalia acts as a destabilizing force within the 
greater Horn region. Until there is some level of peace in Somalia, 
more Somalis will cross over the Somalia-Kenya border into Dadaab and 
piracy will continue. The major supply ports in Mogadishu, Kismayu, and 
Merka are major supply ports for the rest of the Horn of Africa. As 
these ports are disrupted, so is the distribution of aid and commercial 
traffic all up and down the roads that criss-cross from these ports. 
Somali-Ethiopian tensions continue to simmer as ethnic Somali rebels 
battle the Ethiopian Government in the Ogaden and Somalia serves a 
proxy battlefield for ongoing tensions between Ethiopia and Eritrea. 
All of these problems are symptoms of the same underlying cause--the 
perpetual challenge of weak governance in Somalia.
                            recommendations
    Following are steps Congress and the Obama administration should 
take to address the humanitarian situation in a new comprehensive and 
sustainable strategy toward Somalia:
    1. Preserve the limited humanitarian operating space--humanitarian 
needs remain paramount and of such scale that anything that jeopardizes 
the humanitarian relief operations will by extension threaten regional 
stability.
    2. Take urgent steps to deal with the serious public health crisis 
unfolding in Dadaab--press the Kenyan Government to authorize UNHCR to 
start work on a new refugee camp at Dadaab and ensure that its border 
remains open to those fleeing the conflict.
    3. Hold parties accountable for abuses--the international community 
should use their diplomatic, financial, and political leverage with all 
parties to demonstrate that violations of international humanitarian 
and human rights law will not be tolerated, and that perpetrators will 
be held accountable.
    4. Prevent security sector reform and peacekeeping from becoming 
part of the problem--any support to security forces must be transparent 
and accountable and any U.N. peacekeeping force should have wide 
acceptance by Somalis and a peace to keep. Otherwise they risk being 
drawn into the conflict.
    5. Foster a credible, Somali-led political and governance process--
this includes consensus-building, power-sharing, and moderation, but 
not supporting specific individuals or factions.
    6. Ensure any strategy for Somalia has a regional approach--Somalia 
shouldn't be dealt with in isolation as peace in Somalia means engaging 
and resolving issues with neighboring countries.

    Senator Feingold. I thank both of you.
    I thank Senator Kaufman for his attendance. Also Senator 
Risch has joined us, members of the subcommittee.
    Let me start a 7-minute round for this panel. Dr. Menkhaus, 
I'll start with you. No one will dispute, I don't think, that 
the situation in Somalia is far worse than it was 2 or 3 years 
ago, and that the threat posed by terrorism as well as piracy 
is far greater now. Looking at the previous administration's 
approach, as well as that of the international community, what 
lessons do you believe can and should be learned so we don't 
repeat the same mistakes again?
    Dr. Menkhaus. First, I would argue for a more nuanced 
analysis and understanding of the political dynamics in 
Somalia. I think there's a great temptation on the part of 
decisionmakers across the world, when confronted with the 
extraordinary complexities of Somalia, to oversimplify them, 
and that usually comes at a cost in terms of effectiveness of 
policy.
    Second, I would caution against careless use of state-
building initiatives to a transitional government in the 
context of a war. This needs to be very calibrated assistance. 
To the extent that security forces of the Transitional Federal 
Government are controlled by the transitional government 
authorities, to the extent that there is a local ownership of 
those security forces, and to the extent that those local 
security forces are accountable to both the people and the 
government, that opens the door toward external assistance.
    But in conditions where the security forces are essentially 
a paramilitary, a law unto themselves, and are a source of 
insecurity and predation against the local community, our 
assistance--``our'' meaning international assistance--in the 
past essentially meant we were taking sides in an open civil 
war. That was one of the reasons why the U.N. and international 
aid agencies became targets in this insurgency and 
counterinsurgency.
    Senator Feingold. As you know, I'm very concerned that the 
fledgling transitional government is losing support, as well as 
losing ground with this recent fighting I described. In your 
view, Doctor, what specifically does the government need to 
regain support and momentum toward uniting the country? Are 
there important groups or clans or constituencies that should 
be engaged more and who would make a big difference if they 
were brought into the government?
    Dr. Menkhaus. I share your concern about the loss of ground 
that the TFG has experienced. The insurgents' offensive in 
recent weeks has been alarming. I don't know that there is a 
lot that the international community can do to shape the 
outcome of this current crisis at this time. There may be some 
calibrated financial support, there may be some diplomatic 
initiatives, that would facilitate the TFG's current effort to 
negotiate with some elements of the armed insurgency, those 
that we consider groups that are not in any serious way 
indoctrinated, committed jihadists. Bringing as many of those 
into the TFG is certainly a viable strategy on their part, and 
if there are things we can do to facilitate that we should.
    I would caution against an impulse to provide direct 
military support at this time because that would play into the 
hands of the Shabaab. The Shabaab have every interest in 
framing this current fight as Somalis versus foreigners. They 
would love to attract Ethiopia back in. They would benefit 
enormously from U.S. air strikes were that to happen.
    To the extent that this is a Somali internal political 
struggle, Shabaab actually faces real challenges, because what 
they stand for is very unappealing for the vast majority of 
Somalis.
    Senator Feingold. Your view specifically about a sort of 
pivotal figure here, Sheikh Hassan Aweys, who recently returned 
to Somalia? How do you assess his role in all of this and what 
are his intentions?
    Dr. Menkhaus. Hassan Dahir Aweys is on our list of 
designated terrorist suspects, and that's very problematic when 
it comes to efforts on the part of the Transitional Federal 
Government to dialogue with him as a potential partner in this 
government. He is actually of greater concern to Ethiopia than 
he is to us, because he was in the group al-Itihaad al-Islamiya 
in the mid-1990s when
al-Itihaad launched several terrorist attacks against the 
Ethiopian Government. That may well make him a nonstarter for 
Ethiopia were he to be brought into discussions.
    He is currently leading----
    Senator Feingold. A nonstarter for Somalia?
    Dr. Menkhaus. For Ethiopia. Ethiopia would reject----
    Senator Feingold. Would reject it out of hand.
    Dr. Menkhaus. Exactly. And we have to take careful account 
of Ethiopia's legitimate security concerns in this.
    Aweys is currently heading up the Hizbul al-Islamiya 
faction, which is a hard-line Islamist group, but which tends 
to embrace more nationalist, rather than globalist, agendas, 
and therein lies the tension, I think, between Hizbul al-
Islamiya and Shabaab, Shabaab having forged closer links to al-
Qaeda.
    Senator Feingold. Ms. Scribner, I'm glad you're here to 
give the humanitarian perspective and to highlight the great 
constraints which agencies like Oxfam are facing. As the U.S. 
Government considers a new strategy for Somalia, how can we 
ensure that we're not further impeding humanitarian access and 
independence? In your view how should addressing the 
humanitarian situation in Somalia connect with the efforts 
we've been talking about to support political reconciliation 
and governance?
    Ms. Scribner. I think in terms of things I mentioned in my 
testimony that one thing would be air strikes on the ground 
have really impacted aid operations on the ground, because that 
only casts suspicion on NGOs in terms of their alliance with 
the West, with the government, or with the U.S. military. And 
we've had aid organizations that had to suspend operations in 
some of those areas. So that would be really--that is one thing 
that's very critical for operating space on the ground.
    Then the other thing is just holding parties accountable on 
the ground. There is really lack of holding anyone accountable 
for abuses that have been documented by human rights 
organizations and groups on the ground. So if we could somehow 
start holding people accountable that would be helpful to our 
access on the ground as well.
    Senator Feingold. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Dr. Menkhaus, you include bullet points toward the end of 
your printed remarks, which you did not really discuss. The one 
I am reading seems to sum up everything we have been talking 
about. It is on the next to the last page. You write: ``U.S. 
interests are best served by maximizing the extent to which the 
current conflict in Somalia is defined as an internal Somalian 
affair. By contrast, Shabaab and Hizbul al-Islamiya's interests 
are best served when the conflict is regionalized or 
globalized, framed as a Somali versus foreign fighter 
situation.''
    I am going to get to Ms. Scribner on the issue in a second. 
She has a statement that's interesting.
    So I take it when we talk about a coordinated effort in 
Somalia that this effort must be coordinated in part with 
Ethiopia and with Ethiopian cooperation, is that correct?
    Dr. Menkhaus. That's correct. We've spent a lot of time 
this morning talking about coordinated strategy just within the 
U.S. Government, and that's not an easy thing to do. When you 
add all of the external actors whose interests matter, 
including western states, Islamic and Arab states, Ethiopia, 
Eritrea, and Kenya, this gets to be even a greater challenge.
    The key with bringing Ethiopia in as a full partner to a 
solution in Somalia is, first, the very high levels of distrust 
between Somalis and Ethiopia. This is a long historical issue. 
Yet they do have common ground. When you talk to them 
privately, they do see opportunities for coexistence. Somali 
business people would benefit enormously from access to such a 
large internal market. Ethiopia would benefit, obviously, 
enormously from having a stable country on its long border.
    But they haven't gotten to that point yet. So trust-
building, confidence-building measures are really critical.
    The other aspect of bringing Ethiopia more fully into these 
discussions is recognizing that, while our interests overlap 
closely with Ethiopia's and we are allies with them, our 
interests are not identical. They have different sets of 
security concerns and different ways of going about them, and 
we have to be frank with one another about those differences.
    Senator Isakson. Ethiopia's difficulty with Eritrea was 
primarily over their border, if I'm not mistaken. Is there a 
border dispute between Somalia and Ethiopia?
    Dr. Menkhaus. Yes. That border has never been formally 
recognized by Somalia. It was the source of a major war, the 
Ogaden war in 1977-78. Periodically Somali groups, including 
al-Itihaad
al-Islamiya, embrace irredentist claims, territorial claims, on 
the Somali region in Ethiopia, where about 4 million ethnic 
Somalis live. So this remains a source of enduring concern for 
Ethiopia.
    Senator Isakson. So would a coordinated strategy require 
some settlement of that border dispute?
    Dr. Menkhaus. Absolutely. At a minimum, what we would have 
to start off with by way of confidence-building measures would 
be to ensure that any new government in Somalia and any partner 
in a new government in Somalia accept the premise of peaceful 
coexistence with Somalia's neighbors. That is a bitter pill to 
swallow for some Somali nationalists who continue to embrace 
the notion of a greater Somalia. But under the circumstances, 
that's going to have to be one of the things they're willing to 
concede on the table if Somalia is going to get out of this 20-
year impasse.
    Senator Isakson. Ms. Scribner, in point six, you said, 
``Ensure any strategy for Somalia has a regional approach. 
Somalia shouldn't be dealt with in isolation, as peace in 
Somalia means engaging and resolving issues with its 
neighbors.''
    So I am getting the drift that you both agree, from two 
different perspectives which ultimately arrive at the same 
conclusion, that a coordinated strategy must be coordinated 
with Ethiopia and with Somalia. Is there another bordering 
country with which coordination is needed, or is it primarily 
the Ethiopian-Somalian difficulty?
    Ms. Scribner. Definitely the Ethiopians, the Eritreans, but 
also the Kenyans as well, and that has to do a lot with the 
refugee flows into Kenya and the Dadaab camps, and also the 
closing of the border off and on, but the Liboy reception 
center, which is where refugees go to be registered. That 
center has been shut down, so there's no process to register 
Somalis that are fleeing into Kenya at this point. So Kenya is 
also a very important country in terms of coordinated strategy.
    Senator Isakson. Is the Transitional Federal Government 
actually stable enough to sit down at the table with those two 
neighbors, Kenya and Ethiopia, in order to reach an agreement, 
in your judgment?
    Ms. Scribner. I think that there is an effort by the new 
President to reach out to all parties on the ground. I think 
right now the focus has been on parties within Somalia, so the 
different warring parties. But I think as a next step 
definitely reaching out to the other, to Kenya and to Ethiopia. 
But I think right now on his plate is reaching out to the 
different groups on the ground.
    Senator Isakson. I take it that the two organizations--the 
two terrorist organizations, al-Shabaab and the other that you 
mentioned--really play on the nationalist pride of the Somali 
people. And, in doing so, they create an ``it's us versus 
Ethiopia'' mentality, in order to whip up the locals and to 
keep the uncertainty going on. Is that correct?
    Dr. Menkhaus. That's exactly what Shabaab's successful 
formula was in 2007-08. They conflated a radical Islamist 
ideology with a nationalist, anti-imperialist, liberation 
ideology against the Ethiopian occupation, and that won them a 
lot of support, at least passive support, from Somalis who 
didn't accept some of the elements of their Islamist agenda, 
but who saw them as a legitimate leading freedom fighter force 
against the Ethiopian occupation.
    Now that the Ethiopians are out and now that there is a 
new, more broad-based government that's actually led by their 
former leader and a moderate Islamist, Sheikh Sharif, Shabaab 
doesn't have anything to fight against. They have been trying 
to use the African Union forces and their presence in Mogadishu 
as the one remaining rallying point of the Somalis versus the 
foreigners, but that doesn't have as much traction in Somali 
society.
    Senator Isakson. Is al-Shabaab's ultimate goal sharia law 
and control of Somalia? Is that what they really want?
    Dr. Menkhaus. It's difficult to say what Shabaab wants 
because it's actually quite internally divided.
    Senator Isakson. Shabaab is?
    Dr. Menkhaus. Yes. What it certainly wants is to block and 
prevent the Transitional Federal Government from becoming 
operational. It wants to take control. It is definitely a 
power-seeker in that sense. What its policies would be beyond 
that we can only speculate.
    Senator Isakson. Thank you both very much for being here.
    Thank you, Mr. Chairman.
    Senator Feingold. Senator Risch.
    Senator Risch. Ms. Scribner, you made reference to the fact 
that you--I think you said that you would like to see those who 
have committed human rights violations or other violations held 
accountable. How do you do that under present circumstances? 
Certainly everyone would agree with that, but pragmatically 
that seems like a difficult thing.
    Ms. Scribner. What a lot of human rights organizations have 
been calling for is a commission of inquiry. You could do that 
through the U.N., where you have people going in to investigate 
abuses on the ground. A lot of those investigations could be 
done in the bordering countries where refugees have flown, so 
talking to people in Dadaab camps. Most of those people in the 
camps are from Somalia. So you could actually get a lot of 
information.
    Then when the situation or security on the ground allowed, 
go into the country and do some of the investigation, which 
would be helpful in terms of moving toward reconciliation, 
holding parties accountable, and also looking ahead at any 
further abuses that are committed, set up a system on the 
ground.
    Senator Risch. I guess I apologize for my parochial view of 
holding people accountable, but to me holding people 
accountable is dragging them into court and inflicting 
punishment on them for what they've done. I gather that's not 
what you were referring to. You're more of a--you're referring 
more to an inquiry and then a publication of the bad things 
that someone did, but not necessarily a punishment or something 
along those lines.
    Ms. Scribner. I don't think we can get to that yet. But 
yes, exactly, something similar to what's been done in Burundi 
or Rwanda or East Timor even, where it's more of a publication 
of kind of the wrongdoers on the ground, just to give people a 
sense that you cannot act with complete impunity, that people 
are watching, that people do care about the abuses being 
committed on civilians and aid workers, journalists, and human 
rights defenders.
    Senator Risch. I guess it depends on your point of view, 
but from my point of view it's almost counterproductive. If you 
do publish this and say, look, this is what these bad guys did, 
and then don't do anything about it, it doesn't--it's not the 
kind of thing that helps in the future. That is, people say, 
who cares? They discovered all this and then did absolutely 
nothing about it. These people did act with impunity. They're 
still walking down the street. They're still doing whatever.
    So I guess that--I just need help here understanding this. 
I understand what you're saying and I think the frustration is 
you want to do something about it, but yet just investigating 
it and then publishing the results of the investigation it 
would seem to me is not a good deterrent, either individually 
or from a general deterrence standpoint.
    Ms. Scribner. But it does set up a system for people to 
feel like their concerns are being heard, they're taken into 
consideration. It also depends on who is committing the abuses. 
If it's within the police that are part of the Transitional 
Federal Government--and that's something we talked about with 
security sector reform--in terms of holding people accountable, 
you can hold those people accountable because you can fire 
them.
    So there are certain parties that will be held more 
accountable than others and that actions could be taken. But in 
places where there is conflict it does serve as a forum for 
people to have grievances and also just to have their voices 
heard and the problems that they've experienced at the hands of 
different parties heard as well. But again, very complicated 
and not an easy thing to do, but a first step toward actually 
holding people accountable. More needs to be done in the 
future, but we need to take that first step.
    Senator Risch. Thank you. I appreciate that.
    Mr. Menkhaus, I was fascinated by your comment about some 
people have a vision for a greater Somalia. Could you expand on 
what you meant by that?
    Dr. Menkhaus. This is part of an old Somali desire to re-
unify ethnic Somalis who were divided by colonialism into five 
different colonies in the Horn of Africa, Djibouti, British 
Somaliland, Italian Somalia, Kenya, and Ethiopia. Two of those 
five did unite, British Somaliland and Italian Somalia, at 
independence. Now, of course, Somaliland has issued a 
unilateral secession or a termination of the unity between the 
two.
    But it's a core belief in Somali nationalism, which is, 
paradoxically, very, very strong despite the fact that they're 
internally riven by clan and other divisions.
    Senator Risch. Does that go away over a period of time or 
does it get worse?
    Dr. Menkhaus. It's been around since the 1950s. It's far 
less significant today than it has been in the past, when it 
drove wars in the 1970s, but it's still there, not so much for 
the Somali Kenyans, who really have no interest in re-uniting 
with Somalia, nor with Somali Djiboutians, who are enjoying all 
of the fruits of having an independent state. But it's the 
Somali Ethiopians, who are treated as second class citizens in 
Ethiopia, frankly, and who are currently bearing the brunt of a 
very heavy-handed counterinsurgency campaign by the Ethiopian 
Government.
    Senator Risch. What percentage of the population is that in 
Ethiopia?
    Dr. Menkhaus. It's about 4 million of a population of 
roughly 80 million in Ethiopia, if I'm remembering my numbers 
correctly.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Risch.
    I'll ask some more questions. Ms. Scribner, I'm glad that 
you raise the problem of refugee flows to neighboring 
countries. I've been worried specifically about the 
overcrowding and lack of adequate resources in Dadaab, which 
you mentioned, in Kenya, one of the world's oldest, largest, 
and most congested refugee sites. Earlier this week Doctors 
Without Borders said that hundreds of thousands of Somali 
refugees at this camp are finding the camp conditions so 
unbearable that some are considering returning home.
    I know that there's been an effort over the last year to 
work with the Kenyan Government to secure some new land to 
accommodate the refugees, but it's my understanding that a 
solution still hasn't been reached. What is a workable solution 
to this situation and what's the greatest obstacle? Lack of 
leadership, resources, or something else?
    Ms. Scribner. In terms of the Dadaab camps, there are three 
camps--existing camps right now. The negotiation right now is 
to build a fourth camp. While the Kenyan Government has agreed 
with UNHCR in principle, they've announced that they would 
actually authorize land for this fourth camp, they haven't 
officially authorized it. They haven't given it up to them as 
of yet.
    It's going to take about 6 months to construct that fourth 
camp. So in the mean time, as Doctors Without Borders and even 
Oxfam did an assessment report of the camps, we're finding 
there's not enough latrines, the latrines aren't separate 
between women and men, so a lot of the women and children 
aren't using the latrines because of cultural sensitivities of 
using the same latrine. There's not enough water for people.
    So those demands need to be immediately met. Then that 
fourth camp needs to be up and running as quickly as possible. 
There's also an appeal--I believe it's $91 million UNHCR 
appeal--and that's really important to get funding for the 
existing camps and then this fourth camp as well.
    Senator Feingold. Do you expect this fourth camp will be 
available in 6 months or is that not clear?
    Ms. Scribner. It's going to be 6 months from the time the 
Kenyan Government actually authorizes the land. As we hope--
they've agreed in principle, but again they haven't given that 
specific authorization as of yet.
    Senator Feingold. Doctor, in terms of the piracy off 
Somalia's coast, you said previously that naval operations 
might help, but they cannot possibly stop this piracy when 
``the risks are so low, the rewards so high, and 
alternatives,'' in your words, ``so bleak in desolate 
Somalia.'' That was very well put and I want to ask you 
specifically about possible alternatives and the importance of 
economic opportunities and, thinking about United States and 
international assistance to Somalia, how important is economic 
revitalization in promoting livelihoods?
    Obviously, some of this is very difficult with combat 
violence going on in some regions of Somalia. But I'm thinking 
here also about Puntland or even Somaliland.
    Dr. Menkhaus. In the long term, economic revitalization to 
provide opportunities, alternative opportunities for pirates 
and their financial backers are the solution. In the short to 
medium term, though, the on-land solution can also and must 
also come from political authorities that are both willing and 
able to stop the piracy, which I would add is a second order 
security threat for us compared to what's going on in 
Mogadishu. I think we have to be careful not to allow any of 
our antipiracy efforts to compromise our policies toward 
counterterrorism and state-building in the south.
    We do have two instances in Somalia where piracy has been 
prevented or stopped by local political authorities because 
they had a political interest in demonstrating their utility to 
the international community. One is Somaliland. Somaliland has 
the ideal coast along the Gulf of Aden for pirate lairs, and 
yet when pirates have attempted to use those shores Somaliland 
has prevented it, and that's again because they are trying to 
demonstrate their legitimacy and their utility to the 
international community in a bid for international recognition.
    The other instance was the Islamic Courts Union in 2006, 
which put a quick end to piracy along the Indian Ocean coast. 
Again, that was in part because the pirates and their financial 
backers were political rivals of the Islamists, so they had 
incentive to put an end to it, but also because they wanted to 
demonstrate that they were a source of rule of law, someone 
that we would want to work with.
    For me that's instructive. It means that they don't have to 
have a large coast guard. It means that they don't have to have 
the immediate economic revitalization. What they have to have 
is the political interest, the will, to put an end to it on 
shore, and if they have that they will do it.
    Senator Feingold. Doctor, I particularly appreciate your 
candor and your directness. It's exactly what you said, the 
piracy, as important as it is, is not the first order security 
risk here. Of course, we don't have a full room here, just a 
few weeks after the piracy. We don't have the heroes here who 
saved the people. So we revert back to the sort of, OK, 
Somalia's a terribly difficult place, and we forget the most 
elemental thing, which is that the pirates do not live in the 
water; they live on the land.
    And if we're foolish enough to just let this go and move on 
to other things, the next crisis of the day, we will seriously 
involve ourselves in, I think, one of the greatest crises in 
the world. There's a tendency for people to say, well, the 
President's got so many things on his plate, how can he 
possibly have Somalia be at this level? Well, the fact is it 
may well be at that level, and it requires that kind of 
attention. It requires that attention now. So I greatly 
appreciate your comments.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I have just one question for Ms. Scribner. I am going to be 
in Kenya next week, so I need a little education. From what I 
understand, the Dadaab camp is there under the auspices of the 
Kenyan Government allowing it to be there. Who operates he 
camp?
    Ms. Scribner. UNHCR does, so the U.N.
    Senator Isakson. So it's under the auspices of the U.N?
    Ms. Scribner. I believe it is under the auspices of the 
U.N. They're the ones in charge and operating those camps 
there, but with the permission of the Kenyan Government.
    Senator Isakson. And there are half a million refugees, you 
said, in that camp?
    Ms. Scribner. There are 250,000 refugees in three camps.
    Senator Isakson. In three camps?
    Ms. Scribner. Yes. So there are 500,000 refugees in 
surrounding countries and half of those, 250,000, are in the 
Dadaab camps.
    Senator Isakson. Which U.S.-based NGOs are providing 
assistance in that camp?
    Ms. Scribner. I believe Doctors Without Borders; 
International Rescue Committee is also in the camps. And Oxfam 
has done assessments in the camps and we've agreed with the 
government that if a fourth camp is opened that we would 
provide water and sanitation for that fourth camp.
    Senator Isakson. The Kenyan Government?
    Ms. Scribner. Yes.
    Senator Isakson. Thank you very much. Thanks to both of you 
for your testimony today.
    Ms. Scribner. Thanks.
    Senator Feingold. Senator Risch.
    Senator Risch. In the camps themselves, who provides the 
security? Is it the Kenyan Government or the U.N. that provides 
security in the camps, local policing, if you would?
    Ms. Scribner. I think it's the Kenyan police. But there 
have been some allegations of abuse by the police on the 
population within the camps, and I think it was Human Rights 
Watch in particular did a very detailed report of abuses within 
the camps and the problems, not just with the humanitarian 
situation, but with the security situation.
    Senator Risch. Is it the result of ethnic prejudice or that 
sort of thing? What's the source of that?
    Ms. Scribner. I think it's many issues, many different 
issues. Part of it is maybe the police not making enough money, 
so it's preying on the population. It may be that they are 
Somalis and not Kenyans. But I don't know specifically all the 
different issues of it, but I know that there has been a lot of 
reports and concerns about the treatment.
    Half of those 250,000 people are women and children, so 
that's really important to point out.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Feingold. I want to thank the panel very much. I 
particularly want to thank my colleagues for their diligence on 
this and other issues relating to Africa. It really has made 
the work on the subcommittee so far this year a pleasure. I 
want to thank everybody who was involved in the hearing. That 
concludes it.
    [Whereupon, at 10:27 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
